                                              EMPLOYMENT STANDARDS
                                              ADMINISTRATION

Office of Inspector General—Office of Audit




                                              LONGSHORE AND HARBOR WORKERS’
                                              COMPENSATION ACT SPECIAL FUND
                                              FINANCIAL STATEMENTS AND
                                              INDEPENDENT AUDITORS’ REPORT
                                              September 30, 2004 and 2003




                                               This report was prepared by M.D. Oppenheim & Company, P.C., under
                                               contract to the U.S. Department of Labor, Office of Inspector General, and
                                               by acceptance, it becomes a report of the Office of Inspector General.


                                                                                    _________________________
                                                                                    Assistant Inspector General for Audit




                                                                               Date Issued: September 30, 2005
                                                                               Report Number: 22-05-010-04-432
                                          LHWCA Financial Statements and Independent Auditors’ Report


Table of Contents

Independent Auditors’ Report.................................................................................... 3


Longshore and Harbor Workers’ Compensation Act Special Fund
Financial Statements .................................................................................................. 7


    •    Management Discussion and Analysis ......................................................... 10


    •    Balance Sheets ................................................................................................ 15


    •    Statements of Net Cost .................................................................................. 16


    •    Statements of Changes in Net Position......................................................... 17


    •    Statements of Budgetary Resources............................................................ 18


    •    Statements of Financing ................................................................................. 19


    •    Notes to the Financial Statements ................................................................ 20




Prepared by M.D. Oppenheim & Company, P.C., for the                                                                   1
U.S. Department of Labor—Office of Inspector General
Report No: 22-05-010-04-432
LHWCA Financial Statements and Independent Auditors’ Report




                 PAGE HAS BEEN INTENTIONALLY LEFT BLANK




2                                      Prepared by M.D. Oppenheim & Company, P.C., for the
                                       U.S. Department of Labor—Office of Inspector General
                                                               Report No: 22-05-010-04-432
                                LHWCA Financial Statements and Independent Auditors’ Report




                             Independent Auditors’ Report


Ms. Victoria Lipnic, Assistant Secretary
Employment Standards Administration
U.S. Department of Labor

The Chief Financial Officers Act of 1990 (CFO Act) requires agencies to report annually
to Congress on their financial status and any other information needed to fairly present
the agencies’ financial position and results of operations. The Longshore and Harbor
Workers’ Compensation Act Special Fund (the Fund) is included in the U.S. Department
of Labor (DOL) annual financial statements issued to meet the CFO Act reporting
requirements. In addition, the Longshore and Harbor Workers’ Compensation Act
requires that an annual report be made to Congress on the financial status of the Fund.

The objectives of our audit are to express an opinion on the fair presentation of the
Fund’s financial statements, obtain an understanding of the Fund’s internal control, and
test compliance with laws and regulations that could have a direct and material effect on
the financial statements.

We have audited the balance sheet of the Fund as of September 30, 2004 and the
related statements of net cost, changes in net position, budgetary resources, and
financing for the year then ended. These financial statements are the responsibility of
the Fund’s management. Our responsibility is to express an opinion on these financial
statements based on our audit. The Fund’s financial statements as of September 30,
2003 were audited by the U.S. Department of Labor, Office of Inspector General, whose
report dated March 5, 2004, expressed an unqualified opinion on those statements.

We conducted our audit in accordance with auditing standards generally accepted in the
United States of America; the standards applicable to financial audits contained in
Government Auditing Standards, issued by the Comptroller General of the United
States; and Office of Management and Budget (OMB) Bulletin No. 01-02, Audit
Requirements for Federal Financial Statements. Those standards require that we plan
and perform the audit to obtain reasonable assurance about whether the financial
statements are free of material misstatements.




Prepared by M.D. Oppenheim & Company, P.C., for the                                      3
U.S. Department of Labor—Office of Inspector General
Report Number: 22-05-010-04-432
LHWCA Financial Statements and Independent Auditors’ Report

An audit includes examining, on a test basis, evidence supporting the amounts and
disclosures in the financial statements. An audit also includes assessing the accounting
principles used and significant estimates made by management, as well as evaluating
the overall financial statement presentation. We believe that our audit provides a
reasonable basis for our opinion.
Opinion on Financial Statements
In our opinion the financial statements referred to above present fairly, in all material
respects, the assets, liabilities, and net position of the Fund as of September 30, 2004;
and the net cost, changes in net position, budgetary resources, and reconciliation of net
cost to budgetary resources for the year then ended in conformity with accounting
principles generally accepted in the United States of America.

Other Accompanying Information

Our audit was conducted for the purpose of forming an opinion on the Fund’s financial
statements taken as a whole. The information included in the Management Discussion
and Analysis section of the Fund’s annual financial statements is not a required part of
the principal financial statements. The information is required by the Federal
Accounting Standards Advisory Board and OMB Bulletin 01-09. We have applied
certain limited procedures, which consisted principally of inquiries of management
regarding the methods of measurement and presentation of the information. However,
we did not audit the information and express no opinion on it.

Report on Internal Control

In planning and performing our audit, we considered the Fund’s internal control over
financial reporting by obtaining an understanding of the Fund’s internal control,
determined whether these internal controls had been placed in operation, assessed
control risk, and performed tests of controls in order to determine our auditing
procedures for the purpose of expressing our opinion on the financial statements. We
limited our internal control testing to those controls necessary to achieve the objectives
described in OMB Bulletin No. 01-02. We did not test all internal controls relevant to
operating objectives as broadly defined by the Federal Managers’ Financial Integrity Act
of 1982, such as those controls relevant to ensuring efficient operations. The objective
of our audit was not to provide assurance on internal control. Consequently, we do not
provide an opinion on internal control.

Our consideration of the internal control over financial reporting would not necessarily
disclose all matters in the internal control over financial reporting that might be
reportable conditions. Under standards issued by the American Institute of Certified
Public Accountants, reportable conditions are matters coming to our attention relating to
significant deficiencies in the design or operation of the internal control that, in our


4                                       Prepared by M.D. Oppenheim & Company, P.C., for the
                                        U.S. Department of Labor—Office of Inspector General
                                                            Report Number: 22-05-010-04-432
                                LHWCA Financial Statements and Independent Auditors’ Report

judgment, could adversely affect the agency’s ability to record, process, summarize,
and report financial data consistent with the assertions by management in the financial
statements. Material weaknesses are reportable conditions in which the design or
operation of one or more of the internal control components does not reduce to a
relatively low level the risk that misstatements caused by error or fraud in amounts that
would be material in relation to the financial statements being audited may occur and
not be detected within a timely period by employees in the normal course of performing
their assigned functions. Because of inherent limitations in internal controls,
misstatements, losses, or noncompliance may, nevertheless, occur and not be
detected. We noted a certain matter, discussed in the following paragraphs, involving
the internal control and its operations that we consider to be a reportable condition.
However, the reportable condition is not believed to be a material weakness.

With respect to internal control related to performance measures included in the
Management Discussion and Analysis, we obtained an understanding of the design of
significant internal controls relating to the existence and completeness assertions as
required by OMB Bulletin No. 01-02. Our procedures were not designed to provide
assurance on internal control over reported performance measures, and accordingly,
we do not provide an opinion on such controls.

Current Year Reportable Condition

The preparation and review of the financial statements of the Fund involves three
offices within the U.S. Department of Labor. The Fund’s financial statements are
prepared by ESA’s Office of Management, Administration, and Planning, Division of
Financial Management with assistance from ESA’s Office of Workers’ Compensation
Programs, Division of Longshore and Harbor Workers’ Compensation. The report is
then submitted to the Office of the Chief Financial Officer, Division of Financial
Statements for review before being transmitted to the Office of Inspector General for
audit.

The FY 2004 financial statements contained mathematical, accounting (summarization),
and presentation errors. The Management Discussion and Analysis, financial
statements, and notes did not include all of the disclosures as required by accounting
principles generally accepted in the United States of America. For example, the 2003
column of Note 4 to the financial statements did not add correctly, amounts on the
Statement of Budgetary Resources did not agree to the SF-133 Report on Budget
Execution, and required disclosures were omitted. Weaknesses in internal controls
over financial reporting contributed to these errors. Without adequate controls over the
financial reporting process, management cannot ensure that financial reports are
prepared accurately and timely in accordance with applicable accounting standards.

We recommend that the Assistant Secretary for Employment Standards ensure that
controls are developed, implemented and documented that will ensure accurate and
timely preparation of future financial statements.


Prepared by M.D. Oppenheim & Company, P.C., for the                                      5
U.S. Department of Labor—Office of Inspector General
Report Number: 22-05-010-04-432
LHWCA Financial Statements and Independent Auditors’ Report

In response to the issues noted, ESA made all significant corrections to the report and
will implement procedures to strengthen the FY 2005 financial statement preparation
process. This finding is resolved and open pending the results of the implementation of
the proposed procedures in FY 2005.

We also noted another matter involving the internal control and its operations that has
been reported to the management of DOL in a separate letter dated December 20,
2004.

Report on Compliance with Laws and Regulations

The management of the Fund is responsible for complying with laws and regulations
applicable to the Fund. As part of obtaining reasonable assurance about whether the
Fund’s financial statements are free of material misstatement, we performed tests of its
compliance with certain provisions of laws and regulations, noncompliance with which
could have a direct and material effect on the determination of financial statement
amounts and certain other laws and regulations specified in OMB Bulletin No. 01-02.
We limited our tests of compliance to these provisions, and we did not test compliance
with all laws and regulations applicable to the Fund. Providing an opinion on
compliance with those provisions was not an objective of our audit and, accordingly, we
do not express such an opinion.

The results of our tests of compliance with laws and regulations, described in the
preceding paragraph, disclosed no instances of noncompliance that are required to be
reported under Government Auditing Standards or OMB Bulletin No. 01-02.

This report is intended solely for the information of the management of the Longshore
and Harbor Workers’ Compensation Act Special Fund and U.S. Department of Labor,
the Office of Management and Budget, and the Congress, and is not intended to be and
should not be used by anyone other than these specified parties.




April 19, 2005




6                                      Prepared by M.D. Oppenheim & Company, P.C., for the
                                       U.S. Department of Labor—Office of Inspector General
                                                           Report Number: 22-05-010-04-432
                                LHWCA Financial Statements and Independent Auditors’ Report




                   U. S. DEPARTMENT OF LABOR
              EMPLOYMENT STANDARDS ADMINISTRATION




   LONGSHORE AND HARBOR WORKERS’
    COMPENSATION ACT SPECIAL FUND
        FINANCIAL STATEMENTS
      SEPTEMBER 30, 2004 AND 2003




              Office of Management, Administration and Planning
                       Division of Financial Management




M.D. Oppenheim & Company, P.C. for the                                                   7
U.S. Department of Labor—Office of Inspector General
Report Number: 22-05-010-04-432
LHWCA Financial Statements and Independent Auditors’ Report

                                     LONGSHORE AND HARBOR WORKERS'
                                      COMPENSATION ACT SPECIAL FUND

                                              TABLE OF CONTENTS



                                                                                                   PAGE

ACRONYMS                                                                                                     ii

MANAGEMENT DISCUSSION AND ANALYSIS

    Mission and Organizational Structure                                                             I   -1
    Financial Highlights                                                                             I   -1
    Performance Goals and Results                                                                    I   -2
    Internal Controls and Systems                                                                    I   -2
    Known Risks and Uncertainties                                                                    I   -3
    Limitations of the Financial Statements                                                          I   -3

FINANCIAL STATEMENTS

    Balance Sheets                                                                                  II   -   1
    Statements of Net Cost                                                                          II   -   2
    Statements of Changes in Net Position                                                           II   -   3
    Statements of Budgetary Resources                                                               II   -   4
    Statements of Financing                                                                         II   -   5

NOTES TO FINANCIAL STATEMENTS

    Note 1 - Summary of Significant Accounting Policies                                            III   -   1
    Note 2 – Funds with U.S. Treasury                                                              III   -   3
    Note 3 - Investments                                                                           III   -   4
    Note 4 - Accounts Receivable, Net                                                              III   -   4
    Note 5 - Other Liabilities                                                                     III   -   5
    Note 6 - Related Party Transactions                                                            III   -   6
    Note 7 –Statement of Budgetary Resources                                                       III   -   6
    Note 8 – Contingencies and Commitments                                                         III   -   7




                                                          i



8                                                                M.D. Oppenheim & Company, P.C. for the
                                                     U.S. Department of Labor—Office of Inspector General
                                                                         Report Number: 22-05-010-04-432
                                     LHWCA Financial Statements and Independent Auditors’ Report

                               LONGSHORE AND HARBOR WORKERS'
                                COMPENSATION ACT SPECIAL FUND

                                               ACRONYMS




AUP           Agreed Upon Procedures

DCCA          District of Columbia Workmen’s Compensation Act Special Fund

DLHWC         Division of Longshore and Harbor Workers’ Compensation

DOL           Department of Labor

ESA           Employment Standards Administration

FASAB         Federal Accounting Standards Advisory Board

FMFIA         Federal Managers' Financial Integrity Act

FY            Fiscal Year

JFMIP         Joint Financial Management Improvement Project

LCMS          Longshore Case Management System

LHWCPA        Longshore and Harbor Workers’ Compensation Act

OMB           Office of Management and Budget

OWCP          Office of Workers' Compensation Programs

U.S.C.        United States Code




                                                      ii




M.D. Oppenheim & Company, P.C. for the                                                        9
U.S. Department of Labor—Office of Inspector General
Report Number: 22-05-010-04-432
LHWCA Financial Statements and Independent Auditors’ Report




                        U. S. DEPARTMENT OF LABOR

             EMPLOYMENT STANDARDS ADMINISTRATION


                        Longshore and Harbor Workers’
                        Compensation Act Special Fund




                                 SECTION I

              MANAGEMENT DISCUSSION
                             AND ANALYSIS




10                                                 M.D. Oppenheim & Company, P.C. for the
                                       U.S. Department of Labor—Office of Inspector General
                                                           Report Number: 22-05-010-04-432
                                         LHWCA Financial Statements and Independent Auditors’ Report

                                   LONGSHORE AND HARBOR WORKERS’
                                    COMPENSATION ACT SPECIAL FUND

                                MANAGEMENT DISCUSSION AND ANALYSIS
                                        SEPTEMBER 30, 2004

MISSION AND ORGANIZATIONAL STRUCTURE

The Longshore and Harbor Workers’ Compensation Act (LHWCA) provides medical benefits, compensation for
lost-wages and rehabilitation services for job-related injuries, diseases or death of private-sector workers in certain
maritime and related employment. Generally, benefits are paid directly from private funds by an authorized self-
insured employer or through an authorized insurance carrier. Cases meeting the requirements of the Longshore and
Harbor Workers’ Compensation statute are paid from the Fund comprised primarily of employer contributions
(assessments) and administered by the DLHWC. In FY 2004, 5,938 workers (customers) received compensation
benefits from the Fund.

The reporting entity is the Longshore and Harbor Workers' Compensation Act Special Fund (Fund). Organizationally
the Fund is administered by the Employment Standards Administration (ESA), an agency within the United States
Department of Labor. Within ESA, the Division of Longshore and Harbor Workers' Compensation (DLHWC) has
direct responsibility for administration of the Fund. The Fund supports the program mission by providing compensation,
and in certain cases, medical care payments to employees disabled from injuries which occurred on the navigable waters
of the United States, or in adjoining areas used for loading, unloading, repairing, or building a vessel. The Fund also
extends benefits to dependents if any injury resulted in the employee's death.

Additionally, the Longshore and Harbor Workers' Compensation Act Section 10(h) provides annual wage increase
compensation (cost of living adjustments). Fifty percent of this annual wage increase for pre-1972 compensation cases is
paid by Federal appropriated funds, and fifty percent is paid by the Fund through the annual assessment. Appropriated
funding for 10(h) is not reflected in the accompanying financial statements.

Administrative services for operating the Fund are provided by the ESA through direct Federal Appropriations.
Appropriated funding for administrative services is not reflected in the accompanying statements.

FINANCIAL HIGHLIGHTS

The majority of the revenue of the Fund is generated through annual recurring assessments paid by self-insured
employers and insurance carriers and totaled $135,813,028 in FY 2004. This compares with assessment revenue of
$127,660,869 for FY 2003. During FY 2004 and 2003, substantial recoveries were made for the Fund due to activities
involving the application of Agreed Upon Procedures (AUP) on Forms LS-513, Report of Payments (used in the
calculation of the annual assessment), and negotiation/collection of past due assessments. Equally important, the AUP
activities have uncovered common reporting errors and other record-keeping mistakes which, when discovered, have
been eliminated. The on-going AUP program recovered $458,970 in FY 2004 and $862,944 in FY 2003 for the Fund.
These recoveries have and will continue to reduce carrier assessments.

Investment income for the Fund was $420,648 for FY 2004 compared to $511,065 for FY 2003. The average interest
rate earned during FY 2004 was 1.12 percent compared to 1.23 percent for FY 2003. The Fund’s costs remained
relatively stable compared to FY 2003; $134,480,081 for FY 2004 compared to $132,352,443 for FY 2003.

The sources of payments into the Funds include: fines and penalties levied under the Act; payments by employers
of $5,000 for each death case where there is no survivor entitled to the benefits; interest payments on Fund
investments; and, by far the largest source, payment of annual assessments by self-insured employers and insurance
carriers.

                                                         I–1




M.D. Oppenheim & Company, P.C. for the                                                                              11
U.S. Department of Labor—Office of Inspector General
Report Number: 22-05-010-04-432
LHWCA Financial Statements and Independent Auditors’ Report

                                   LONGSHORE AND HARBOR WORKERS’
                                    COMPENSATION ACT SPECIAL FUND

                                MANAGEMENT DISCUSSION AND ANALYSIS
                                        SEPTEMBER 30, 2004

FINANCIAL HIGHLIGHTS – Continued

Proceeds of the Special Funds are used for payments under: section 8(f) for second injury claims; section 10(h) for
initial and subsequent annual adjustments in compensation for permanent total disability or related death from
injuries which occurred prior to the effective date of the 1972 LHWCA amendments; sections 39(c) and 8(g) for the
procurement of medical and vocational rehabilitation services for permanently disabled employees and to provide a
maintenance allowance to workers undergoing rehabilitation; section 18(b) for compensation to injured workers in
cases of employer default; and section 7(e) for the cost of certain medical examinations.

PERFORMANCE GOALS AND RESULTS

The DLHWC supports the Department of Labor’s Strategic Goal 2 - A Secure Workforce. This goal broadly
promotes the economic security of workers and families. In particular, the DLHWC program supports Outcome
Goal 2.2 – To Protect Worker Benefits. The Department of Labor plays a large role in ensuring that worker benefits
are protected and that employers administer benefit programs in an appropriate way. The Longshore program assists
in meeting this outcome goal. In order to accomplish this outcome Longshore established the following
performance goal for FY 2004:

Reduce by four percent over the FY 2002 baseline the average time required to resolve disputed issues in
Longshore and Harbor Worker’s Compensation Program contested cases.

This target was achieved, with 260 days as the average number of days to resolve disputed issues, thirteen days
below the target of 273 days. The objective of this indicator is to quickly resolve disputes, enabling earlier benefit
delivery and reducing litigation costs. In FY 2004 the average time to resolve disputed issues improved.
Intervention when disputes began along with a variety of tools used to resolve them created confidence in the
program’s role as a mediator between injured worker and employer, and highlighted its efforts to become more
customer-centered.

Longshore management has focused on timeliness and improved amicability in handling contested cases. Other
program reforms ensure proper data collection and reporting, and improved communications with injured workers,
employers and insurers. In FY 2005, these approaches will intensify. Additional training of Longshore claims staff
will continue to improve mediation skills. The indicator for FY 2005 is to continue to reduce the average
proceeding time with a FY 2005 target of 268 days.

INTERNAL CONTROLS AND SYSTEMS

The Longshore and Harbor Workers’ Compensation Division’s Branch of Financial Management and Insurance is a
very small unit comprised of six employees and one supervisor, all working in very close proximity to each other.
Unethical behavior is guarded against by carefully segregated duties, carefully assigned roles which are password
protected, and by close supervision. Much of the oversight, evaluation, monitoring, and control and almost all of the
supervisory activity is informal, done on a face-to-face basis. Similarly, each of the district offices is in itself a
small unit, operating in the same fashion as the Branch of Financial Management and Insurance.

                                                        I–2




12                                                              M.D. Oppenheim & Company, P.C. for the
                                                    U.S. Department of Labor—Office of Inspector General
                                                                        Report Number: 22-05-010-04-432
                                           LHWCA Financial Statements and Independent Auditors’ Report

                                     LONGSHORE AND HARBOR WORKERS’
                                      COMPENSATION ACT SPECIAL FUND

                                  MANAGEMENT DISCUSSION AND ANALYSIS
                                          SEPTEMBER 30, 2004

INTERNAL CONTROLS AND SYSTEMS – continued

Management communicates all procedural, policy, and operating goals to staff by means of weekly staff meetings, a
written procedure manual, frequent e-mail communication, and frequent individual communications regarding
changes, problems and issues.

Statutes provide the formal standards where these are applicable, such as privacy statutes, cash handling procedures
and conflict of interest regulations. All codes, statutes, and regulations governing the conduct of Federal employees
apply to all Longshore Division employees.

Cases paid by the Special Fund are paid as a result of a formal Compensation Order issued by a District Director or
Administrative Law Judge, setting forth precisely what payment is due and to whom the payment is due. Each new
case coming in for Special Fund payment is prepared and reviewed by a total of five different employees before
payment is made, thus insuring accuracy.

Monthly cash statements, monthly case management reports, quarterly review processes, biweekly payment
summaries, the SF-224 report and statement of differences all provide current, reliable, and accurate information.

KNOWN RISKS AND UNCERTANTIES

The Longshore Special Fund is the single largest payer of indemnity payments under the Longshore Act. It pays
more than double the next largest payer of benefits. Although there are nearly 800 authorized insurance carriers and
self-insured employers, benefit payments are concentrated among a relatively few. For example, the top 10
carriers/self-insurers alone pay almost one-half of total industry payments excluding Special Fund payments.

The Special Fund is assessed one year at a time for current expenses. There are no reserve funds for future Special
Fund obligations. It is strictly pay as you go one year at a time, in keeping with the language of section 44 of the
Longshore Act.

Taken together, these two factors could indicate future problems if one or more of the largest payers become
insolvent and unable to pay their assessment obligations. Temporary collection issues could result, necessitating
special, unscheduled assessments or other actions to keep the Special Fund funded for current liabilities.

LIMITATIONS OF THE FINANCIAL STATEMENTS

The following limitations are part of the financial statements:

         -   The financial statements have been prepared to report the financial position and results of operations of the
             entity, pursuant to the requirements of the Chief Financial Officers Act of 1990, U.S.C. 3515 (b).

         -   While the statements have been prepared from the books and records of the Fund in accordance with the
             formats prescribed by OMB, the statements are different from the financial reports used to monitor and
             control budgetary resources which are prepared from the same books and records.

         -   The statements should be read with the realization that they are for a component of the U.S. Government, a
             sovereign entity, that liabilities cannot be liquidated without the enactment of an appropriation, and that the
             payment of all liabilities other than for contracts can be abrogated by the sovereign entity.

                                                           I–3



M.D. Oppenheim & Company, P.C. for the                                                                                  13
U.S. Department of Labor—Office of Inspector General
Report Number: 22-05-010-04-432
LHWCA Financial Statements and Independent Auditors’ Report




                        U. S. DEPARTMENT OF LABOR

             EMPLOYMENT STANDARDS ADMINISTRATION

                        Longshore and Harbor Workers’
                        Compensation Act Special Fund




                                SECTION II

                 FINANCIAL STATEMENTS




                            Fiscal Year 2004 and 2003
                               Financial Statements




14                                                 M.D. Oppenheim & Company, P.C. for the
                                       U.S. Department of Labor—Office of Inspector General
                                                           Report Number: 22-05-010-04-432
                                       LHWCA Financial Statements and Independent Auditors’ Report

                                LONGSHORE AND HARBOR WORKERS'
                                 COMPENSATION ACT SPECIAL FUND

                                             BALANCE SHEETS
                                     As of September 30, 2004 and 2003



                                                                               2004             2003
ASSETS

Intragovernmental assets
  Funds with U.S. Treasury (Note 2)                                      $      465,067   $       55,916
  Investments (Note 3)                                                       69,653,321       64,348,093
     Total intragovernmental assets                                          70,118,388       64,404,009

Accounts receivable, net of allowance (Note 4)                                1,316,673        3,475,185

Total assets                                                             $ 71,435,061     $ 67,879,194



LIABILITIES AND NET POSITION

Liabilities
  Accounts Payable                                                       $            0   $       13,188
  Accrued benefits payable                                                    3,155,032        2,172,113
  Deferred revenue                                                           34,164,308       30,885,374
  Other liabilities (Note 5)                                                  9,973,788       10,399,181

Total liabilities                                                            47,293,128       43,469,856

Net position
 Cumulative results of operations                                            24,141,933       24,409,338

Total liabilities and net position                                       $ 71,435,061     $ 67,879,194




The accompanying notes are an integral part of these statements.

                                                   II - 1




M.D. Oppenheim & Company, P.C. for the                                                                     15
U.S. Department of Labor—Office of Inspector General
Report Number: 22-05-010-04-432
LHWCA Financial Statements and Independent Auditors’ Report

                                 LONGSHORE AND HARBOR WORKERS’
                                  COMPENSATION ACT SPECIAL FUND

                                       STATEMENTS OF NET COST
                              For the Years Ended September 30, 2004 and 2003

                                                                                2004         2003

SPECIAL FUND NET COST OF OPERATIONS

With the public
 Second injury compensation, Section 8(f)                               $ 123,436,824   $ 121,355,505
 Wage increase compensation, Section 10(h)                                  2,091,456       2,157,599
 Compensation payment for self-insurer in default, Section 18(b)            4,716,042       4,598,743
 Rehabilitation services, Section 39 (c)                                    2,968,490       2,611,956
 Rehabilitation maintenance, Section 8(g)                                         175            (400)
 Medical services, Section 7(e)                                                 8,939           2,315
 Bankrupt self-insured employers                                            1,258,155       1,626,725

Net cost of operations                                                  $ 134,480,081   $ 132,352,443




The accompanying notes are an integral part of these statements.

                                                     II - 2




16                                                            M.D. Oppenheim & Company, P.C. for the
                                                  U.S. Department of Labor—Office of Inspector General
                                                                      Report Number: 22-05-010-04-432
                                       LHWCA Financial Statements and Independent Auditors’ Report


                                  LONGSHORE AND HARBOR WORKERS’
                                   COMPENSATION ACT SPECIAL FUND

                               STATEMENTS OF CHANGES IN NET POSITION
                               For the Years Ended September 30, 2004 and 2003



                                                                          2004                2003

 CUMULATIVE RESULTS OF OPERATIONS

 Cumulative results of operations, beginning                        $    24,409,338     $    30,619,035

 Budgetary financing sources:
  Transfers in/out without reimbursement (Note 6)                         (2,021,000)         (2,029,188)
  Non-exchange revenues:
    Interest                                                                420,648             511,065
    Assessments                                                         135,813,028         127,660,869
  Total non-exchange revenues                                           136,233,676         128,171,934

 Total financing sources                                                134,212,676         126,142,746

   Net cost of operations                                               (134,480,081)       (132,352,443)

 Net position, end of period                                        $    24,141,933     $    24,409,338




 The accompanying notes are an integral part of these statements.

                                                    II - 3



M.D. Oppenheim & Company, P.C. for the                                                                 17
U.S. Department of Labor—Office of Inspector General
Report Number: 22-05-010-04-432
LHWCA Financial Statements and Independent Auditors’ Report

                                 LONGSHORE AND HARBOR WORKERS’
                                  COMPENSATION ACT SPECIAL FUND

                               STATEMENTS OF BUDGETARY RESOURCES
                              For the Years Ended September 30, 2004 and 2003



                                                                            2004                2003

 BUDGETARY RESOURCES (Note 7)

     Budgetary authority:
       Appropriations received                                        $ 141,041,377      $ 133,727,455
     Unobligated balance:
       Beginning of period                                                 62,173,892         61,682,960
       Temporary not available pursuant to Public Law                         (14,995)                 0

     Total budgetary resources                                        $ 203,200,274      $ 195,410,415



 STATUS OF BUDGETARY RESOURCES

     Obligations incurred (Note 7)
       Direct                                                         $ 136,343,705      $ 133,236,523
     Unobligated balances available
       Apportioned
       Other available - exempt from apportionment                       66,856,569         62,173,892
     Total status of budgetary resources                              $ 203,200,274      $ 195,410,415



 RELATIONSHIP OF OBLIGATIONS TO OUTLAYS (Note 7)

     Obligated balance, net, beginning                                $     2,185,301    $     1,910,614
     Obligated balance, net, ending
      Accounts payable                                                      3,155,032          2,185,301
     Outlays:
      Disbursements                                                       135,360,785        132,961,836

     Net outlays                                                      $ 135,360,785      $ 132,961,836




 The accompanying notes are an integral part of these statements.

                                                     II - 4




18                                                           M.D. Oppenheim & Company, P.C. for the
                                                 U.S. Department of Labor—Office of Inspector General
                                                                     Report Number: 22-05-010-04-432
                                       LHWCA Financial Statements and Independent Auditors’ Report



                                  LONGSHORE AND HARBOR WORKERS’
                                   COMPENSATION ACT SPECIAL FUND

                                       STATEMENTS OF FINANCING
                              For the Years Ended September 30, 2004 and 2003



                                                                                2004             2003

RESOURCES USED TO FINANCE ACTIVITIES

Budgetary Resources Obligated
  Obligations incurred                                                 $ 136,343,705        $ 133,236,523
Other Resources
  Transfers, net                                                           (2,021,000)         (2,029,188)
Total resources used to finance activities                                134,322,705         131,207,335

COMPONENTS OF THE NET COST OF OPERATIONS
 THAT WILL NOT REQUIRE OR GENERATE
 RESOURCES IN THE CURRENT PERIOD

Components Not Requiring or Generating Resources
  Change in benefit and retirement liability                                           0         (140,968)
  Revaluation of assets and liabilities                                          366,628
  Benefit overpayments                                                          (209,252)       1,286,076
Total components of net cost of operations that will not
require or generate resources in the current period                             157,376         1,145,108

Net cost of operations                                                 $ 134,480,081        $ 132,352,443




The accompanying notes are an integral part of these statements.

                                                      II – 5




M.D. Oppenheim & Company, P.C. for the                                                                  19
U.S. Department of Labor—Office of Inspector General
Report Number: 22-05-010-04-432
LHWCA Financial Statements and Independent Auditors’ Report




                        U. S. DEPARTMENT OF LABOR

             EMPLOYMENT STANDARDS ADMINISTRATION

                        Longshore and Harbor Workers’
                         Compensation Act Special Fund




                               SECTION III

                            NOTES TO THE
                 FINANCIAL STATEMENTS




                            Fiscal Year 2004 and 2003
                               Financial Statements


20                                                 M.D. Oppenheim & Company, P.C. for the
                                       U.S. Department of Labor—Office of Inspector General
                                                           Report Number: 22-05-010-04-432
                                         LHWCA Financial Statements and Independent Auditors’ Report

                                   LONGSHORE AND HARBOR WORKERS'
                                    COMPENSATION ACT SPECIAL FUND

                                  NOTES TO THE FINANCIAL STATEMENTS
                                 For the Years Ended September 30, 2004 and 2003


NOTE 1 - SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES

The principal accounting policies which have been followed by the Fund in preparing the accompanying financial
statements are set forth below.

A.       Reporting Entity

These financial statements present the financial position, net cost of operations, changes in net position, budgetary
resources and financing activities of the Longshore and Harbor Workers' Compensation Act Special Fund (Fund). The
Fund is administered by the Employment Standards Administration (ESA) which is an agency within the United States
Department of Labor. Within ESA, the Division of Longshore and Harbor Workers' Compensation has direct
responsibility for administration of the Fund. The Fund offers compensation, and in certain cases, medical care
payments to employees disabled from injuries which occurred on the navigable waters of the United States, or in
adjoining areas used for loading, unloading, repairing, or building a vessel. The Fund also extends benefits to
dependents if any injury resulted in the employee's death.

Additionally, the Longshore and Harbor Workers' Compensation Act [Section 10(h)] provides annual wage increase
compensation (cost of living adjustments). Fifty percent of this annual wage increase for pre-1972 compensation cases is
paid by Federal appropriated funds and fifty percent is paid by the Fund through the annual assessment. Appropriated
funding for 10(h) is not reflected in the accompanying financial statements.

B.       Basis of Accounting and Presentation

These financial statements present the financial position, net cost of operations, changes in net position, budgetary
resources and financing and activities of the Longshore and Harbor Workers’ Compensation Act Special Fund
(Fund), in accordance with accounting principles generally accepted in the United States of America and the form
and content requirements of OMB Bulletin 01-09. These financial statements have been prepared from the books
and records of the Fund. These financial statements are not intended to present, and do not present, the full cost of
the Longshore and Harbor Workers’ Compensation Act Program (Longshore Program). In addition to the Fund
costs presented in these statements, the full cost of the Longshore Program would include certain direct costs of ESA
in the form of salaries and expenses for administration of the Longshore Program and allocated costs of ESA and
other DOL agencies incurred in support of the Longshore Program. The full cost of the Longshore Program is
included in the Consolidated Financial Statements of the U.S. Department of Labor.

Accounting principles generally accepted in the United States of America encompass both accrual and budgetary
transactions. Under accrual accounting, revenues are recognized when earned, and expenses are recognized when a
liability is incurred. Budgetary accounting facilitates compliance with legal constraints on, and controls over, the use
of federal funds. These financial statements are different from the financial reports, also prepared for the Fund
pursuant to OMB directives, used to monitor the Fund’s use of budgetary resources.



                                                        III – 1




M.D. Oppenheim & Company, P.C. for the                                                                              21
U.S. Department of Labor—Office of Inspector General
Report Number: 22-05-010-04-432
LHWCA Financial Statements and Independent Auditors’ Report

                                    LONGSHORE AND HARBOR WORKERS'
                                     COMPENSATION ACT SPECIAL FUND

                                  NOTES TO THE FINANCIAL STATEMENTS
                                 For the Years Ended September 30, 2004 and 2003


NOTE 1 - SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES - Continued

C.       Funds with U.S. Treasury

The Fund does not maintain cash in commercial bank accounts. Cash receipts and disbursements are processed by the
U.S. Treasury. The Funds with U.S. Treasury are trust funds that are available to pay current liabilities and finance
authorized purchase commitments.

D.       Investments

Investments in U.S. Government securities are reported at cost, net of unamortized premiums or discounts, which
approximates market value. Premiums or discounts are amortized on a straight-line basis, which approximates the
effective interest method. The Fund's intent is to hold investments to maturity, unless they are needed to finance claims
or otherwise sustain the operations of the Fund. No provision is made for unrealized gains or losses on these securities
because, in the majority of cases, they are held to maturity.

E.       Accounts Receivable, Net of Allowance

The amounts due as receivables are stated net of an allowance for uncollectible accounts. The allowance is estimated
based on past experience in the collection of the receivables and an analysis of the outstanding balances. Also included
as benefit overpayments receivable are Fund benefit overpayments made to individuals who were determined ineligible
to receive benefits.

F.       Accrued Benefits Payable

The Longshore and Harbor Workers’ Compensation Special Fund provides compensation and medical benefits for work
related injuries to workers in certain maritime employment. The Fund recognizes a liability for disability benefits
payable to the extent of unpaid benefits applicable to the current period.

G.       Deferred Revenue

Deferred revenues represent the unearned assessment revenues as of September 30, the Fund's accounting year end. The
annual assessments cover a calendar year and, accordingly, the portion extending beyond September 30 has been
deferred.

H.       Financing Sources Other Than Exchange Revenue

Non-exchange revenues arise from the Federal government’s power to demand payments from and receive
donations from the public. Non-exchange revenues are recognized by the Fund for assessments levied against the
public and interest income from investments.

The Fund’s primary source of revenue is annual assessments levied on insurance carriers and self-insured
employers. Assessments are recognized as non-exchange revenue when due. Included in revenues are recoveries of
amounts reassessed to carriers related to prior years.
                                                       III – 2




22                                                                M.D. Oppenheim & Company, P.C. for the
                                                      U.S. Department of Labor—Office of Inspector General
                                                                          Report Number: 22-05-010-04-432
                                         LHWCA Financial Statements and Independent Auditors’ Report

                                   LONGSHORE AND HARBOR WORKERS'
                                    COMPENSATION ACT SPECIAL FUND

                                 NOTES TO THE FINANCIAL STATEMENTS
                                For the Years Ended September 30, 2004 and 2003


H.       Financing Sources Other Than Exchange Revenue - Continued

These reassessments primarily result from application of Agreed Upon Procedures (AUP) on reported carrier data.
Recoveries amounted to $458,970 during fiscal year ended September 30, 2004 and $862,944 during fiscal year
ended September 30, 2003.

The Fund also receives interest on Fund investments and on Federal funds in the possession of non-Federal entities.

NOTE 2 - FUNDS WITH U.S. TREASURY

Funds with the U.S. Treasury at September 30, 2004 and 2003 consisted of cash deposits of $465,067 and $55,916
respectively. These cash deposits at September 30, 2004 and 2003 included $14,464 and $293 respectively which are
being held as security by authority of Section 32 of the Longshore and Harbor Workers' Compensation Act. These funds
relate to the default of self-insured employers, are available for payment of compensation and medical benefits to
covered employees of the defaulted companies.

Funds with U.S. Treasury at September 30, 2004 consisted of the following:

                                              Entity Assets
                 Unobligated       Unobligated       Obligated
                   Balance            Balance        Balance Not           Total       Non-entity
                  Available         Unavailable    Yet Disbursed      Entity Assets     Assets             Total
Special Fund   $         0         $       0       $ 465,067           $ 465,067        $       0     $    465,067


Funds with U.S. Treasury at September 30, 2003 consisted of the following:

                                              Entity Assets
                 Unobligated       Unobligated       Obligated
                   Balance            Balance        Balance Not           Total       Non-entity
                  Available         Unavailable    Yet Disbursed      Entity Assets     Assets             Total
Special Fund   $         0         $       0       $ 55,916            $ 55,916         $       0     $     55,916




                                                       III – 3




M.D. Oppenheim & Company, P.C. for the                                                                          23
U.S. Department of Labor—Office of Inspector General
Report Number: 22-05-010-04-432
LHWCA Financial Statements and Independent Auditors’ Report

                                      LONGSHORE AND HARBOR WORKERS'
                                       COMPENSATION ACT SPECIAL FUND

                                   NOTES TO THE FINANCIAL STATEMENTS
                                  For the Years Ended September 30, 2004 and 2003



NOTE 3 - INVESTMENTS

Investments at September 30, 2004 and 2003 consisted of the following:

                                                           September 30, 2004

                                        Face                                         Net             Market
                                        Value             Discount                   Value           Value
Intragovernmental securities
  Marketable                           $ 69,863,000      $ (209,679)          $ 69,653,321      $ 69,653,321


                                                           September 30, 2003
                                          Face                                    Net              Market
                                         Value             Discount               Value            Value
Intragovernmental securities
  Marketable                           $ 64,438,000       $ (89,907)          $ 64,348,093      $ 64,348,093


Investments of $9,586,548 and $9,210,400 for 2004 and 2003 are being held as security by authority of Section 32 of the
Longshore and Harbor Workers' Compensation Act. These investments are available for payment of compensation and
medical benefits to covered employees of the defaulted companies. Investments at September 30, 2004 and 2003 consist
of short-term U.S. Treasury Bills and are stated at amortized cost which approximates market. Investments at September
30, 2004 bear interest rates varying from 1.34% to 1.89% compared to rates varying from 0.90% to 0.99% for 2003.
Interest rates on securities bought and sold during fiscal year 2004 ranged from 0.89% to 1.89% compared to 0.83% to
1.85% for fiscal year 2003.


NOTE 4 - ACCOUNTS RECEIVABLE, NET

Accounts receivable at September 30, 2004 and 2003 consisted of the following:

                                                                           2004                       2003
Entity assets
  Benefit overpayments                                                 $ 1,466,511               $ 1,270,447
  Assessments receivable                                                   289,053                 2,709,301
  Less: allowance for doubtful accounts                                  (438,891)                 (504,563)

     Total accounts receivable, net                                    $ 1,316,673                $ 3,475,185

Assessments receivable represent the unpaid annual assessments from the current and prior years. Accounts receivable
from overpayments to claimants arise primarily from amended compensation orders and corrections of payment
computations. These receivables are being primarily recovered by partial and total withholding of benefit payments.

                                                        III – 4



24                                                                M.D. Oppenheim & Company, P.C. for the
                                                      U.S. Department of Labor—Office of Inspector General
                                                                          Report Number: 22-05-010-04-432
                                           LHWCA Financial Statements and Independent Auditors’ Report

                                     LONGSHORE AND HARBOR WORKERS'
                                      COMPENSATION ACT SPECIAL FUND

                                   NOTES TO THE FINANCIAL STATEMENTS
                                  For the Years Ended September 30, 2004 and 2003


NOTE 4 - ACCOUNTS RECEIVABLE, NET - Continued

Changes in the allowance for doubtful accounts during 2004 and 2003 consisted of the following:

                                                                     September 30, 2004

                                       Allowance             Write            Revenue                 Allowance
                                          9-30-03             Offs          Adjustment    Bad Debt       9-30-04
Entity assets
  Benefit overpayments                $ (381,135)    $   381,135        $           - $ (366,628)    $ (366,628)
  Assessment receivable                (123,428)        (19,954)               71,119           0       (72,263)
                                      $(504,563)      $ 361,181          $     71,119 $ (366,628)    $ (438,891)


                                                                     September 30, 2003
                                       Allowance             Write          Revenue                   Allowance
                                          9-30-02             Offs        Adjustment    Bad Debt         9-30-03
Entity assets
  Benefit overpayments                $ (44,396)      $     4,891       $          - $ (341,630)     $ (381,135)
  Assessment receivable                 (97,356)        2,023,100        (2,049,172)           -       (123,428)
                                      $(141,752)      $ 2,027,991       $(2,049,172) $(341,630)      $ (504,563)


NOTE 5 - OTHER LIABILITIES

Other liabilities at September 30, 2004 and 2003 consisted of the following current liabilities:

                                                                                     2004                   2003
Other liabilities
  Assessment overpayments by carriers                                               $ 372,776            $ 1,188,488
  Defaulted employer liability
    Held in investments                                                              9,586,548              9,210,400
    Held in cash                                                                        14,464                    293
                                                                                     9,601,012              9,210,693

  Total other liabilities                                                          $ 9,973,788           $ 10,399,181

Assessment overpayments are to be refunded upon request or applied to reduce future assessments.

Defaulted employer liability relates to funds and investments held by the Longshore Special Fund which are being held
as security by authority of Section 32 of the Act. These funds and investments are available for compensation and
medical benefits to covered employees of the defaulted companies. Management estimates that these funds and
investments held will not be sufficient to cover the future benefits associated with the covered employees.

                                                           III – 5




M.D. Oppenheim & Company, P.C. for the                                                                             25
U.S. Department of Labor—Office of Inspector General
Report Number: 22-05-010-04-432
LHWCA Financial Statements and Independent Auditors’ Report

                                    LONGSHORE AND HARBOR WORKERS'
                                     COMPENSATION ACT SPECIAL FUND

                                  NOTES TO THE FINANCIAL STATEMENTS
                                 For the Years Ended September 30, 2004 and 2003


NOTE 6 - RELATED PARTY TRANSACTIONS

The Fund reimburses the Office of Workers' Compensation Programs (OWCP) (a related entity within the Employment
Standards Administration) for rehabilitation services provided to eligible claimants and certain direct expenses associated
with administrative support of the Fund. Amounts paid to the OWCP were $2,021,000 in 2004 and $2,029,188 in 2003.

NOTE 7 – STATEMENT OF BUDGETARY RESOURCES

A. Apportionment Categories of Obligations Incurred

                                                                        2004                        2003

Direct Obligations
 Exempt from apportionment                                          $136,343,705                $133,236,523

B Explanation of Differences Between the Statement of Budgetary Resources and the Budget of the United States
Government

The Budget of the United States Government with actual amounts for the year ended September 30, 2004, has not been
published as of the issue date of these financial statements. This document will be available in February 2005. In,
addition, the reconciliation of the Report of Budget Execution (SF133) and the Statement of Budgetary Resources will
be performed in Fiscal Year 2005 after the Department receives the final SF133 reports from Trust Fund and allocated
accounts.

A reconciliation of budgetary resources, obligations incurred and outlays, as presented in the Statement of Budgetary
Resources to amounts included in the Budget of the United States Government for the year ended September 30, 2003 is
shown below:

                                                                                   September 30, 2003

                                                                Budgetary           Obligations
(Dollars in Millions)                                           Resources            Incurred            Outlays

Statement of Budgetary Resources                                    $   196           $   133           $      133

     District of Columbia Workers’ Compensation                     $    16           $     11           $      11

Budget of the United States Government                              $   212           $    144           $     144



                                                          III – 6




26                                                                M.D. Oppenheim & Company, P.C. for the
                                                      U.S. Department of Labor—Office of Inspector General
                                                                          Report Number: 22-05-010-04-432
                                          LHWCA Financial Statements and Independent Auditors’ Report

                                    LONGSHORE AND HARBOR WORKERS'
                                     COMPENSATION ACT SPECIAL FUND

                                  NOTES TO THE FINANCIAL STATEMENTS
                                 For the Years Ended September 30, 2004 and 2003


NOTE 8 - CONTINGENCIES AND COMMITMENTS

In the opinion of the management of the Fund and its legal counsel, there is no pending or threatened litigation which has
a reasonable possibility of materially affecting the financial position or results of operations of the Fund.

Section 39(c)(2) of the Longshore and Harbor Workers' Compensation Act authorizes vocational rehabilitation of
disabled employees and Section 8(g) provides additional compensation to disabled employees while undergoing
rehabilitation training. Rehabilitation services paid from the Fund are mainly provided by private counselors and private
training facilities. The rehabilitation agreements are funded by future assessments from the insurance carriers and
self-insured employers. The amount of the outstanding rehabilitation agreements at September 30, 2004 is $4,507,966
compared to $4,448,695 for September 30, 2003.




                                                         III – 7



M.D. Oppenheim & Company, P.C. for the                                                                                27
U.S. Department of Labor—Office of Inspector General
Report Number: 22-05-010-04-432
